1a
APPENDIX A
COMMONWEALTH OF MASSACHUSETTS
SUPREME JUDICIAL COURT
It is ORDERED that the following applications for
further appellate review be, and hereby are, DENIED:
*
FAR-27934
2019-P-1170

*

*

Commonwealth v Erich G. Sorenson
*

*

*

BY THE COURT,
Maura A. Looney
Maura A. Looney
Assistant Clerk
ENTERED: January 14, 2021

2a
APPENDIX B
COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
COMMONWEALTH vs. ERICH SORENSON
No. 19-P-1170
Middlesex. September 8, 2020 – November 16, 2020
Present: Green, C.J., Milkey, & Wendlandt, JJ.
Arrest. Search and Seizure, Curtilage, Arrest. Constitutional Law, Assistance of counsel, Arrest, Search
and seizure. Due Process of Law, Assistance of counsel. Practice, Criminal, Assistance of counsel, Motion
to suppress.
INDICTMENTS found and returned in the Superior
Court Department on June 22, 2012.
Following review by this court, 93 Mass. App. Ct.
1108 (2018), a motion for a new trial, filed on April 8,
2019, was considered by Robert L. Ullmann, J., and a
motion for reconsideration also was considered by
him.
Sara A. Laroche for the defendant.
Kevin J. Curtin, Assistant District Attorney, for the
Commonwealth.
WENDLANDT, J. In this case we consider the issue
whether trial counsel provided ineffective assistance
by failing to move to suppress evidence garnered during the defendant’s warrantless arrest in the hallway
immediately adjacent to the apartment of the multiunit, three-story apartment building in which he was
living. The motion judge denied the defendant’s motion for a new trial, holding that the hallway was not

3a
a constitutionally protected area and therefore counsel’s failure to file such a motion did not constitute ineffective assistance under the familiar Saferian
test. 1, 2 Concluding that the denial of the motion for a
new trial was not an abuse of discretion because the
common hallway at issue did not constitute the apartment’s curtilage and, therefore, there was no abuse of
discretion in denying the defendant’s motion for reconsideration, we affirm.
Background. The defendant was convicted of armed
assault with intent to rob, G. L. c. 265, § 18(b); and
assault and battery by means of a dangerous weapon
causing serious bodily injury, G. L. c. 265, § 15A(c)(i),
stemming from the stabbing of the victim. An eyewitness, who was familiar with the defendant, identified
him to the police as the assailant and told them the
street address where the defendant lived and that he
lived in “an apartment on the third floor, in the back
right-hand side apartment.” When Lowell Police Sergeant Joseph Murray arrived at the address, he observed a “three-story building with numerous apartments on each floor.”
Sergeant Murray knocked on the door of the unit. A
woman answered the door, and Murray asked
whether the defendant was home. At that moment,
the defendant came walking toward the door from inside the apartment. Murray asked the defendant “to
1

Commonwealth v. Saferian, 366 Mass. 89, 96 (1974).

The defendant also filed a timely motion for reconsideration and
appeals only from the order denying it. Because the timely motion for reconsideration incorporates most of the same arguments
made in the motion for a new trial, our review requires determination whether the motion for a new trial correctly was decided.
The Commonwealth does not contend otherwise.
2

4a
step out in the hallway.” The defendant complied, and
Murray proceeded to arrest him.
In his direct appeal, the defendant conceded that
there was probable cause to arrest him, but argued for
the first time that the fruits of his warrantless arrest 3
should have been suppressed because the arrest occurred in the curtilage of the apartment. Commonwealth v. Sorenson, 93 Mass. App. Ct. 1108 (2018). We
affirmed, holding that because the defendant raised
the argument for the first time on appeal, it was
waived. Id.
In his motion for a new trial, the defendant contended that he was provided constitutionally ineffective counsel because counsel failed to make the curtilage argument. As discussed supra, the motion judge,
who was also the trial judge, denied the motion.
Discussion. “The trial judge upon motion in writing
may grant a new trial at any time if it appears that
justice may not have been done.” Mass. R. Crim. P. 30
(b), as appearing in 435 Mass. 1501 (2001). We review
the denial of a motion for a new trial for an abuse of
discretion. See Commonwealth v. Fernandes, 485
Mass. 172, 187 n.10 (2020). “We afford particular deference to a decision on a motion for a new trial based
As Murray was handcuffing the defendant and explaining that
he was being arrested in connection with “a stabbing that occurred the other night,” the defendant responded, “I was here all
Saturday.” Murray had not told him that the stabbing occurred
on Saturday. Murray also noticed during the arrest that the defendant had a band-aid on his finger and later, after the bandaid had been removed, observed a laceration on that finger. Murray found the injury significant because “it’s not uncommon
when somebody is involved in a stabbing that they get cut themselves.”
3

5a
on claims of ineffective assistance where the motion
judge was, as here, the trial judge.” Commonwealth
v. Diaz Perez, 484 Mass. 69, 73 (2020), quoting Commonwealth v. Martin, 467 Mass. 291, 316 (2014).
The defendant claims entitlement to a new trial because, he contends, his counsel provided constitutionally deficient assistance. Claims of ineffective assistance of counsel require examination of counsel’s performance to determine (1) “whether there has been serious incompetency, inefficiency, or inattention of
counsel—behavior of counsel falling measurably below that which might be expected from an ordinary
fallible lawyer,” and, if so, (2) “whether it has likely
deprived the defendant of an otherwise available, substantial ground of defence.”
Commonwealth v.
Saferian, 366 Mass. 89, 96 (1974). The defendant
maintains that his counsel’s performance was constitutionally deficient because counsel did not seek to
suppress evidence collected during the defendant’s
warrantless arrest in the curtilage of his residence—
an arrest, he contends, that violated his rights under
the Fourth Amendment to the United States Constitution and art. 14 of the Massachusetts Declaration of
Rights. “In order to succeed on a claim of ineffective
assistance of counsel based on the failure to file a motion to suppress evidence, the defendant must show
that he would have prevailed on such a motion.” Commonwealth v. Johnston, 467 Mass. 674, 688 (2014).
See Commonwealth v. Lally, 473 Mass. 693, 703 n.10
(2016), quoting Commonwealth v. Satterfield, 373
Mass. 109, 115 (1977) (“question is whether filing of
the motion ‘might have accomplished something material for the defense’”). Because the record does not
support a conclusion that the hallway where the defendant was arrested constituted the curtilage of his

6a
residence, the defendant has failed to make the necessary showing.
1. Curtilage. 4 In determining whether an area outside of the home constitutes the constitutionally protected curtilage of the home, “the central component
of [the] inquiry [is] whether the area harbors the ‘intimate activity associated with the sanctity of a [person’s] home and the privacies of life’” (quotation omitted). United States v. Dunn, 480 U.S. 294, 300 (1987),
quoting Oliver v. United States, 466 U.S. 170, 180
(1984). Although the concept of curtilage is to be assessed on a case-by-case basis, the Supreme Judicial
Court has cautioned that it “is applied narrowly to
multiunit apartment buildings.” Commonwealth v.
Escalera, 462 Mass. 636, 648 (2012) (locked basement
area exclusively accessible by tenants of apartment
within curtilage of defendant’s apartment). 5
Absent justification, the police cannot intrude upon a constitutionally protected area, including the curtilage of the home, without a warrant. See Florida v. Jardines, 569 U.S. 1, 5-6, 11 (2013).
This constitutional protection of the home and its curtilage does
not require a showing that the defendant has a reasonable expectation of privacy; instead, the protection is grounded in property rights. Id. at 11 (unnecessary to consider reasonable expectation of privacy test when government gains evidence by physically intruding on constitutionally protected areas). “One virtue
of the Fourth Amendment’s property-rights baseline is that it
keeps easy cases easy.” Id.
4

The defendant maintains that the view espoused by the court
in Escalera no longer represents the current approach to the
question of curtilage. Compare Commonwealth v. Leslie, 477
Mass. 48, 54 (2017) (“we reject the Commonwealth’s argument
that in cases involving a search in a multifamily home, the validity of the search turns on the defendant’s exclusive control or expectation of privacy in the area searched”; “the essential question
is whether the area searched is within the home or its curtilage”),
5

7a
On appeal, the defendant incorrectly contends that
the judge erred by applying the four factors set forth
in Dunn to determine whether the hallway constituted curtilage. 6
The four factors are (i) “the proximity of the area
claimed to be curtilage to the home”; (ii) “whether the
area is included within an enclosure surrounding the
with Escalera, 462 Mass. at 648 (“The concept of curtilage is applied narrowly to multiunit apartment buildings . . . . [A multiunit] tenant’s ‘dwelling’ cannot reasonably be said to extend beyond his own apartment and perhaps any separate areas subject
to his exclusive control” [quotation and citation omitted]). See
Commonwealth v. Thomas, 358 Mass. 771, 774-775 (1971) (“In a
modern urban multifamily apartment house, the area within the
‘curtilage’ is necessarily much more limited than in the case of a
rural dwelling subject to one owner’s control”). Nothing in Leslie,
supra at 57, which emphasizes the relevance of the Dunn factors,
is inconsistent with our approach or conclusion in this case.
The defendant contends that our decision in Commonwealth v.
Street, 56 Mass. App. Ct. 301 (2002), abrogated in part on other
grounds by Commonwealth v. Tyree, 455 Mass. 676, 697-700
(2010), is controlling. In Street, however, the defendant was inside his apartment or “on or at” the threshold when the arrest
was effected, id. at 306-307, 307 n.11 (defendant opened door to
his apartment and arrest occurred while police stood in hallway).
In contrast, the record in the present case reveals that the defendant was in the hallway, outside of the apartment and its
threshold when he was arrested. The defendant’s reliance on
Commonwealth v. Molina, 439 Mass. 206, 207-208, 211 (2003);
Commonwealth v. Marquez, 434 Mass. 370, 375 (2001); and
United States v. Allen, 813 F.3d 76, 78 (2d Cir. 2016), each of
which involved an arrest effected inside the defendant’s home, is
similarly unavailing. See Allen, supra at 78 (“This is a liminal
case, which presents a close line-drawing problem. If the officers
had gone into [the defendant’s] apartment without a warrant to
effect the arrest, the arrest would violate the Constitution; if [the
defendant] had come out of the apartment into the street and
been arrested there, no warrant would be required”).
6

8a
home”; (iii) “the nature of the uses to which the area
is put”; and (iv) “the steps taken by the resident to
protect the area from observation by people passing
by.” Dunn, 480 U.S. at 301. Contrary to the defendant’s contention, the Supreme Judicial Court has “emphasize[d] the relevance of the Dunn factors for our
courts in determining whether a challenged police action occurr[ed] within the boundaries of a home.”
Commonwealth v. Leslie, 477 Mass. 48, 57 (2017) (applying Dunn factors to determine whether side yard
and porch of multifamily home were part of curtilage).
While the factors do not constitute a “finely tuned formula” that ought to be “mechanically applied,” they
“are useful analytical tools only to the degree that, in
any given case, they bear upon the centrally relevant
consideration—whether the area in question is so intimately tied to the home itself that it should be placed
under the home’s ‘umbrella’ of Fourth Amendment
protection.” Id. at 55, quoting Dunn, supra. Thus, the
judge here did not err in analyzing the defendant’s
claim by application of the Dunn factors.
Nor did the judge err in concluding, after weighing
the Dunn factors, that the common hallway adjacent
to the defendant’s residence was not curtilage. Indeed, the only Dunn factor that favors the defendant’s
position is the first—the proximity of the hallway to
the defendant’s home. The record shows that the hallway was physically adjacent to the apartment unit.
The remaining three factors do not support extending the concept of curtilage. Specifically, with regard
to the second Dunn factor, the record is devoid of any
information as to whether the hallway was enclosed;
certainly, there is nothing in the record suggesting
that it was enclosed relative to the defendant’s

9a
individual apartment. See Commonwealth v. McCarthy, 428 Mass. 871, 875 (1999) (noting second Dunn
factor does not favor finding area curtilage where “[t]o
whatever extent the parking lot is enclosed, it is an
enclosure encompassing a common area utilized by all
the tenants and visitors of the building”).
Nor does the third Dunn factor—the nature of the
uses of the hallway—favor the defendant’s position.
From the record, it appears the hallway was a common hallway used by the residents of the building
(and their guests) to reach each separate unit. See
McCarthy, 428 Mass. at 875 (lot used by tenants,
guests, maintenance workers, and anyone else with
business at building not curtilage).
Furthermore, nothing in the record supports a finding that any steps were taken to obscure the hallway
from view—the fourth Dunn factor. To the contrary,
it appears to have been open to residents and guests.
See McCarthy, 428 Mass. at 875 (lot not curtilage
where “freely visible” to anyone entering it). Contrast
Commonwealth v. Fernandez, 458 Mass. 137, 145-146
(2010) (curtilage extended to driveway where fence
separated driveway from neighboring building, other
residents and their guests had no need to traverse
driveway, and police did not observe driveway being
used by anyone other than defendant and his guests).
In sum, the present record does not support the defendant’s position that the hallway was an area that
“harbors the ‘intimate activity associated with the
sanctity of a [person’s] home and the privacies of life’”
(quotation omitted). Dunn, 480 U.S. at 300, quoting
Oliver, 466 U.S. at 180. In fact, the defendant cites no
authority holding that the common hallway of a multiunit apartment complex is curtilage. Our own

10a
review reveals no Massachusetts case addressing
such a common hallway; indeed, cases in other jurisdictions addressing a similar claim hold that a common hallway of a multiunit apartment complex is not
curtilage in contexts comparable to those present in
this case. See United States v. Trice, 966 F.3d 506,
515 (6th Cir. 2020) (applying Dunn factors and holding “hallway in . . . a common area open to the public
to be used by other apartment tenants to reach their
respective units” not curtilage). See also United
States v. Makell, 721 Fed. Appx. 307, 308 (4th Cir.
2018) (per curiam) (“the common hallway of the apartment building, including the area in front of [the defendant’s] door, was not within the curtilage of his
apartment”); Lindsey v. State, 226 Md. App. 253, 281
n.8, 127 A.3d 627 (Ct. Spec. App. 2015) (area in front
of defendant’s apartment door not curtilage); State v.
Edstrom, 916 N.W.2d 512, 520 (Minn. 2018) (“privacies” of home life “do not extend . . . immediately outside [defendant’s] apartment”); State v. Nguyen, 841
N.W.2d 676, 682 (N.D. 2013), cert. denied, 576 U.S.
1054 (2015) (“common hallway is not . . . within the
curtilage of [defendant’s] apartment”).
Accordingly, we hold that the judge did not abuse
his discretion in concluding that trial counsel’s assistance was not ineffective by not bringing a motion to
suppress on this basis. Johnston, 467 Mass. at 688
(performance of counsel not ineffective where motion
to suppress would not have succeeded). 7
The defendant argues alternatively that he had a reasonable
expectation of privacy in the common hallway. See Katz v.
United States, 389 U.S. 347, 360 (1967) (Harlan, J., concurring).
The cases relied on by the defendant are readily distinguished.
See Commonwealth v. Porter P., 456 Mass. 254, 259-261 (2010)

7

11a
2. Seizure. The defendant also asserts, in the alternative, that he was seized inside his residence at the
moment Murray knocked on the door and asked the
defendant to step out into the hallway. The failure to
raise such an argument, the defendant apparently
claims, rendered trial counsel’s performance constitutionally deficient.
A seizure occurs when, “in view of all the circumstances surrounding the incident, a reasonable person
would have believed that he was not free to leave.”
Commonwealth v. Barros, 435 Mass. 171, 173-174
(2001), quoting United States v. Mendenhall, 446 U.S.
544, 554 (1980). See Commonwealth v. Matta, 483
Mass. 357, 362 (2019) (“the . . . pertinent question is
whether an officer has, through words or conduct, objectively communicated that the officer would use his
or her police power to coerce that person to stay”).
“[T]he police do not effectuate a seizure merely by asking questions unless the circumstances of the encounter are sufficiently intimidating that a reasonable person would believe that he was not free to turn his back
on his interrogator and walk away.” Barros, supra at
174. Police officers “may make inquiry of anyone they
wish and knock on any door, so long as they do not
implicitly or explicitly assert that the person inquired
(discussing juvenile’s reasonable expectation of privacy inside
his locked room at transitional shelter where he kept his personal belongings); Commonwealth v. Hall, 366 Mass. 790, 794795 (1975) (tenant who was also owner of apartment building
had reasonable expectation of privacy in hallway solely used and
controlled by owner and accessed by locked door and buzzer system controlled by owner). Nothing in the record—such as exclusive or even restricted use, control, or access—supports an inference that the defendant harbored any reasonable expectation of
privacy in the common hallway at issue.

12a
of is not free to ignore their inquiries.” Id., quoting
Commonwealth v. Murdough, 428 Mass. 760, 763
(1999). Contrast Johnson v. United States, 333 U.S.
10, 13-15 (1948) (officer’s entry into defendant’s living
quarters without exigency cannot be justified as incident to arrest).
Here, Murray knocked on the defendant’s door and
asked him to step into the hallway. Without more, the
record does not support the defendant’s contention
that the request constituted a seizure. Barros, 435
Mass. at 174. Accordingly, counsel’s assistance was
not ineffective in failing to raise this alternative
ground. Johnston, 467 Mass. at 688. 8 Thus, the motion for a new trial and the motion for reconsideration
properly were denied.
Order denying motion for reconsideration affirmed.

To the extent the defendant’s other arguments have not been
explicitly addressed, they “have not been overlooked. We find
nothing in them that requires discussion.” Commonwealth v.
Brown, 479 Mass. 163, 168 n.3 (2018), quoting Commonwealth v.
Domanski, 332 Mass. 66, 78 (1954).
8

13a
APPENDIX C
COMMONWEALTH OF MASSACHUSETTS
MIDDLESEX, ss.

SUPERIOR COURT
CRIMINAL ACTION
No. 1281CR0669

COMMONWEALTH
vs.
ERICH GORDON SORENSON
MEMORANDUM OF DECISION AND ORDER
ON DEFENDANT’S MOTION FOR NEW TRIAL
Defendant Erich Gordon Sorenson (“Sorenson”)
moves for a new trial under Mass. R. Crim. P. 30(b),
following his conviction on October 5, 2015 on charges
of armed assault with intent to rob and assault & battery by means of a dangerous weapon causing serious
bodily injury. The charges arose out of a severe, lifethreatening stabbing. Police obtained significant evidence against Sorenson immediately after his arrest.
Sorenson argues that his trial counsel provided ineffective assistance by failing to argue at a suppression hearing that his warrantless arrest was unlawful
because it was made on the curtilage of his residence,
his girlfriend’s apartment. For the below reasons, Sorenson’s motion is DENIED.
DISCUSSION
For purposes of this ruling, the Court assumes that
Sorenson’s girlfriend’s apartment was Sorenson’s residence at the time of his arrest. The Court further assumes that the evidence obtained by police immediately after Sorenson’s arrest, i.e., Sorenson’s statement showing knowledge of when the stabbing

14a
occurred and a cut on his hand, was important in the
case against him. However, this Court need not reach
the issue of whether trial counsel’s alleged deficient
performance caused prejudice, because trial counsel’s
performance was not deficient. An argument by trial
counsel that police made an unlawful warrantless arrest on the curtilage of Sorenson’s residence would
have failed, because the arrest occurred in a location
that was not curtilage of the apartment.
A. The Legal Standards
1. Ineffective assistance of counsel
To establish ineffective assistance of counsel, the defendant must prove “behavior of counsel falling measurably below that which might be expected from an
ordinary fallible lawyer,” which “likely deprived [him]
of an otherwise available, substantial ground of defense.” Commonwealth v. Saferian, 366 Mass. 89, 96
(1974). Massachusetts law follows the two-prong
standard established in Strickland v. Washington,
466 U.S. 668 (1984), which requires the defendant to
prove (1) deficient performance and (2) resulting prejudice, i.e. a reasonable probability that effective assistance would have led to a different outcome.
2. Arrests on the curtilage of a residence
It is settled law that, absent probable cause and exigent circumstances, police cannot arrest a person inside his residence or on the curtilage of his residence.
Florida v. Jardines, 569 U.S. 1, 10 (2013); Commonwealth v. Leslie, 477 Mass. 48, 54-55 (2017). In the
absence of controlling precedent on the specific type of
space presented, the Court must apply the four-factor
test established in United States v. Dunn, 480 U.S.

15a
294 (1987) to resolve the ultimate question of whether
the space is “intimately tied” to the home:
In Dunn, the Supreme Court introduced a fourfactor test to determine whether an area searched
was within the home’s curtilage: (i) “the proximity
of the area claimed to be curtilage to the home”;
(ii) “whether the area is included within an enclosure surrounding the home”; (iii) “the nature of
the uses to which the area is put”; and (iv) “the
steps taken by the resident to protect the area
from observation by people passing by.” Id. The
Court cautioned, however, that “combining these
factors [does not] producef ] a finely tuned formula
that, when mechanically applied, yields a ‘correct’
answer to all extent-of-curtilage questions.” Id.
Instead, “these factors are useful analytical tools
only to the degree that, in any given case, they
bear upon the centrally relevant consideration—
whether the area in question is so intimately tied
to the home itself that it should be placed under
the home’s ‘umbrella’ of Fourth Amendment protection.”
Leslie, 477 Mass. at 55.
B. Application of the Legal Standards
It is undisputed that police placed Sorenson under
arrest after he had stepped outside his girlfriend’s
apartment, where he was living at the time, into the
common hallway area immediately outside his girlfriend’s apartment. Therefore, the dispositive issue in
this case is the legal issue of whether common hallway
area immediately outside the front door to an apartment constitutes curtilage of the apartment.

16a
Counsel have cited no case, and this Court has
found no case, addressing this specific question. However, it seems evident from Supreme Judicial Court
precedent that common hallways in a multi-unit
apartment building are not curtilage:
The concept of curtilage is applied narrowly to
multiunit apartment buildings. Curtilage in an
apartment building is “very limited,” Commonwealth v. McCarthy, supra at 875; “a tenant’s
‘dwelling’ cannot reasonably be said to extend beyond his own apartment and perhaps any separate areas subject to his exclusive control.” Commonwealth v. Thomas, 358 Mass. 771, 775 (1971).
Commonwealth v. Escalera, 462 Mass. 636, 648
(2012). Because the common hallway area immediately outside Sorenson’s girlfriend’s apartment was
not under the exclusive control of Sorenson’s girlfriend or Sorenson, Escalera would appear to resolve
the issue. However, this Court will consider the four
Dunn factors.
Only the first Dunn factor, proximity to the home,
clearly supports Sorenson’s argument. The second
factor, whether a multiunit apartment house’s common hallways are “within an enclosure surrounding
the home,” is a matter of interpretation. However, the
third and fourth factors, the “nature of the uses to
which the area is put” and the “steps taken by the resident to protect the area from observation by people
passing by,” overwhelmingly support the Commonwealth’s argument. There is no evidence that the common hallway at issue here had any use other than to
allow residents and their guests to get to all of the
apartments on that floor. And, obviously, no steps had
been taken to protect the common hallway area from

17a
observation by people passing by to other apartments
on that floor. Compare Leslie, 477 Mass. at 55-56
(porch and yard were curtilage based on evidence that
they were “physically connected to the home,” “enclosed with a chain link fence . . . and large wooden
fence,” “obstructed . . . from the street” and used as an
“extension of [the] home”).
Sorenson’s reliance on Commonwealth v. Marquez,
434 Mass. 370 (2001) is unavailing. Marquez is distinguishable from this case in a dispositive way, i.e.,
the defendant in Marquez was arrested inside his
apartment, 434 Mass. at 376, whereas Sorenson was
arrested in the common hallway area outside his
apartment.
In his reply brief, Sorenson argues briefly for the
first time that effectively he was under arrest before
stepping out of his apartment because he could not ignore officer Murray’s request that he step outside. See
Def. Reply Br. at 3. To the extent that this argument
is not waived, see, e.g., Commonwealth v. Johnson,
470 Mass. 300, 318-319 (2014), it fails based on its dubious assumption that, if Sorenson had opted not to
enter the common hallway, Sergeant Murray, the
same officer whose warrantless entry into a residence
resulted in suppression of evidence in Marquez, would
have again made an unconstitutional warrantless arrest of Sorenson inside the apartment instead of obtaining an arrest warrant. Trial counsel’s failure to
make this factually unsupported and counterintuitive
argument surely does not amount to ineffective assistance of counsel.
Relying on dicta in United States v. Allen, 813 F.3d
76, 85-86 (2d Cir. 2016), Sorenson also argues that it
would be “perverse” for the outcome to depend upon

18a
whether he had “simply closed the door and retreated
deeper into his home” instead of coming into the hallway. Def. Reply Br. at 3. However, this is precisely
the line that the court in Allen recognized must be
drawn. As the court stated:
This a liminal case, which presents a close linedrawing problem. If the officers had gone into Allen’s apartment without a warrant to effect the arrest, the arrest would violate the Constitution; if
Allen had come out of the apartment into the
street and been arrested there, no warrant would
be required. We conclude that the protections of
Payton are primarily triggered by the arrested
person’s location and do not depend on the location
or conduct of the arresting officers.
813 F.3d at 77 (emphasis in original). Indeed, Allen
supports the Commonwealth’s argument by noting
that “if Allen had come out of the apartment into the
street and been arrested there, no warrant would be
required.” Id. (emphasis in original).
In sum, because the common hallway area immediately outside Sorenson’s girlfriend’s apartment where
he was arrested was not curtilage of the apartment,
trial counsel’s failure to make the argument at a suppression hearing does not constitute ineffective assistance of counsel.
C. Denial of Sorenson’s Motion for an Evidentiary Hearing
Sorenson’s counsel has made a significant argument
in the sense that there appears to be no controlling
Supreme Judicial Court or Appeals Court decision directly on point. However, this Court interprets Rule
30(c)(3) to require a hearing only if there is a material

19a
factual dispute. See Commonwealth v. Stewart, 383
Mass. 253, 260 (1981) (“The primary purpose of [rule
30 (c) (3)] is to encourage the disposition of post-conviction motions upon affidavit”) (quoting Mass. R.
Crim. P. 30, Reporter’s Notes, 1979). Because there is
no factual dispute as to where Sorenson’s arrest occurred, there is no need for an evidentiary hearing. 1
CONCLUSION AND ORDER
For the above reasons, Erich Sorenson’s Motion for
New Trial Pursuant to Mass. R. Crim. P. 30 is DENIED.
Dated: June 11th, 2019

Robert L. Ullmann
Robert L. Ullmann
Justice of the Superior Court

There is no need for an evidentiary hearing as to whether Sorenson was under arrest before stepping into the common hallway area, because trial counsel’s failure to make this argument
was not ineffective assistance. See supra at 4-5.
1

20a
APPENDIX D
COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
COMMONWEALTH vs. ERICH SORENSON
No. 17-P-909
MEMORANDUM AND ORDER
PURSUANT TO RULE 1:28
Following a jury trial in the Superior Court, the defendant, Erich Sorenson, was convicted of armed assault with intent to rob, and assault and battery by
means of a dangerous weapon causing serious bodily
injury. On appeal, the defendant claims that the
judge erred in denying his motion to suppress. We affirm.
Background. On April 14, 2012, the defendant
stabbed the victim during an attempted robbery. The
victim sustained serious injury and was hospitalized
for more than six weeks. Two days after the incident,
an eyewitness to the stabbing identified the defendant
as the assailant and told the police where he lived.
Lowell police entered the residence, which was described as a three-story building with numerous
apartments on each floor. Sergeant Joseph Murray
knocked on the door of one of the units, and after
speaking with a female, the defendant came to the
door. Murray asked the defendant to step out into the
hallway and, after he complied, Murray arrested him.
The defendant filed a motion to suppress both the
statements that he made to the police subsequent to
his arrest as well as Murray’s observation of a cut on
the defendant’s finger. The defendant claimed that
the police did not have probable cause for a warrant-

21a
less arrest. After an evidentiary hearing, the judge
denied the motion, finding that the police had probable cause to arrest the defendant.
Motion to suppress. 1 The defendant filed a motion
to suppress claiming that the police lacked sufficient
evidence identifying him as the assailant. He claimed
that the eyewitness identification of him and the victim’s identification of him from a photographic array
were insufficient to establish probable cause for a warrantless arrest.
“In reviewing a decision on a motion to suppress,
‘we accept the judge’s subsidiary findings of fact absent clear error “but conduct an independent review
of [her] ultimate findings and conclusions of law.”’”
Commonwealth v. Keefner, 461 Mass. 507, 515 (2012),
quoting from Commonwealth v. Scott, 440 Mass. 642,
646 (2004). “We make an independent determination
of the correctness of the judge’s application of constitutional principles.” Commonwealth v. Cassino, 474
Mass. 85, 88 (2016) (quotation omitted).
Notably, the defendant does not argue that the
judge’s findings are clearly erroneous. Indeed, at oral
argument, he conceded that the police had probable
cause and, having reviewed the record, we agree.
Probable cause to arrest “exists where, at the moment
of arrest, the facts and circumstances within the
knowledge of the police are enough to warrant a prudent person in believing that the individual arrested
has committed or was committing an offense.” Commonwealth v. Franco, 419 Mass. 635, 639 (1995),
We rely solely on the testimony at the suppression hearing, notwithstanding the defendant’s citation to trial testimony.

1

22a
quoting from Commonwealth v. Santaliz, 413 Mass.
238, 241 (1992).
Instead, on appeal, the defendant claims for the first
time that the arrest was made at the curtilage of the
apartment and therefore a warrant was required. The
defendant also claims that all he need do is file a motion to suppress citing as the basis the mere fact that
he was arrested without a warrant. We disagree on
both claims.
Pursuant to Mass.R.Crim.P. 13(a)(2), as appearing
in 442 Mass. 1516 (2004), a motion to suppress “shall
state the grounds on which it is based and shall include in separately numbered paragraphs all reasons,
defenses, or objections then available, which shall be
set forth with particularity.” This requirement “alerts
the judge and the Commonwealth to the suppression
theories at issue, and allows the Commonwealth to
limit its evidence to these theories.” Commonwealth
v. Silva, 440 Mass. 772, 781 (2004). Unsurprisingly,
the judge’s findings are devoid of any discussion of
this claim as it was not raised in the motion to suppress. Judges cannot be expected to rule on theories
that are not presented to them. “Our system is premised on appellate review of that which was presented
and argued below.” Commonwealth v. Bettencourt,
447 Mass. 631, 634 (2006). This claim is waived. See
Mass.R.Crim.P. 13(a)(2) (“Grounds not stated which
reasonably could have been known at the time a motion is filed shall be deemed to have been waived . . .”).
The question of curtilage is not new and could have
been raised in the motion. See Commonwealth v.
Murphy, 353 Mass. 433, 436-437 (1968).
As the defendant details, a curtilage analysis is a
fact specific one. See Commonwealth v. Leslie, 477

23a
Mass. 48, 55 (2017). Here, the Commonwealth was
not on notice of the defendant’s theory that he was arrested without a warrant in the curtilage of the apartment. As a result, the evidence presented on the details of the apartment building, the apartment in
question, and the hallway in front of it was de minimus. In United States v. Dunn, 480 U.S. 294,301
(1987), the United States Supreme Court set out four
factors to be used to determine whether the area in
question falls within the protection of the Fourth
Amendment to the United States Constitution. Such
an analysis must be decided on a case-by-case basis.
See Commonwealth v. Fernandez, 458 Mass. 137, 143
(2010). By failing to raise this issue below, the Commonwealth was not afforded the opportunity to present evidence on the Dunn factors; the judge was not
asked to make such findings; and this panel cannot
review the theory, raised for the first time on appeal.
Judgments affirmed.
By the Court (Meade, Hanlon & Blake, JJ. 2),
Joseph F. Stanton
Clerk
Entered: April 30, 2018.

2

The panelists are listed in order of seniority.

24a
APPENDIX E
COMMONWEALTH OF MASSACHUSETTS
MIDDLESEX, ss.

SUPERIOR COURT
CRIMINAL ACTION
No. 2012-00669

COMMONWEALTH
vs.
ERICH SORENSON
MEMORANDUM AND ORDER ON
DEFENDANT’S MOTION TO SUPPRESS
INTRODUCTION
Defendant Erich Sorenson (“Sorenson”) is charged
with one count of assault and battery with a dangerous weapon, under G. L. c. 265, § 15 A; and one count
of armed assault with intent to rob or murder, under
G. L. c. 265, § 18(b). Sorenson asserts that officers of
the Lowell Police Department (“LPD”) did not have
probable cause for his warrantless arrest on the evening of April 16, 2012. He therefore moves to suppress
all evidence seized during the search incident to that
arrest, along with all fruits thereof. After an evidentiary hearing and careful examination of the parties’
submissions, the motion is DENIED for the following
reasons.
FINDINGS OF FACT
Based on the evidence presented at the hearing, for
the purposes of this Order, the Court finds the following facts. 1 On the evening of April 14, 2012, LPD
Evidence presented at the hearing includes the testimony of
Sergeant Joseph Murray of the Lowell Police Department

1

25a
officers responded to a reported stabbing incident in
Lowell, Massachusetts. The victim, Jose Ramos Ortiz
(“Ortiz”), appears to have been a drug dealer and was
in Lowell for the purpose of selling drugs. The sale
that preceded the stabbing was arranged by a regular
customer, later identified as Nancy DeMarco, with
whom Ortiz was personally acquainted. Ortiz arrived
at the designated location in a car, accompanied by
two passengers, Emily Jimenez (“Jimenez”) and
Marta Lebron (“Lebron”), both of whom were adult
women. DeMarco was already waiting, and was observed by Jimenez and Lebron, who remained in
Ortiz’s car while he got out of the car to make the sale.
Ortiz returned to the car a few minutes later in
great distress. He said he had been stabbed. They
drove to Saints Medical Center, where Ortiz was
treated for severe stabbing injuries. LPD officers responded to Saints Medical Center and interviewed
Ortiz, who did not know his assailant but was able to
provide a general description: a tall, skinny, whiteskinned male wearing a t-shirt. 2 LPD officers also interviewed Jimenez and Lebron, who said that the customer, Nancy DeMarco, was present at the scene of
the drug purchase. Ortiz’s phone records also showed
communication between Ortiz and DeMarco’s cellular
telephone.
(“LPD”), along with six exhibits. The exhibits include the statements of Emily Jimenez, Marta Lebron, and Nancy DeMarco:
photo arrays shown to Jimenez, Lebron, and DeMarco; and the
booking sheet created after Sorenson’s arrest.
At the hearing, Sorenson argued that this description was the
“sparest imaginable.” The court disagrees. While this description may not be highly detailed, it contains sufficient identifying
information to form the basis of further investigation.
2

26a
Subsequently, an LPD officer interviewed DeMarco,
though the interview was not conducted in an interrogation room and was not recorded. DeMarco volunteered information about herself and the stabbing.
DeMarco said she was addicted to heroin and regularly used other drugs, including Xanax and Wellbutrin. 3 She identified Ortiz (whom she knew as “Carlos”) as her drug dealer for more than three years, and
said that she had arranged to purchase drugs from
him that evening. She also said that Sorenson, whom
she knew by name prior to the stabbing incident,
learned about this drug purchase after it was arranged and planned to rob Ortiz. DeMarco apparently
knew about Sorenson’s planned robbery before it occurred, but said that she did not expect any violence
and urged Sorenson to show restraint.
At some point after DeMarco revealed her prior
knowledge of the robbery, the LPD officer interrupted
her to read her the Miranda warnings. DeMarco said
that she understood her rights, waived them, and was
willing to continue giving her statement. DeMarco
was not arrested. The LPD officer did not offer DeMarco any special treatment in exchange for her
statement, nor did the officers threaten any punitive
treatment if she refused to talk to them.
DeMarco identified Sorenson as Oritz’s assailant by
picking him out of a photo array. DeMarco also corroborated Ortiz’s description of Sorenson’s attire during the stabbing. DeMarco then directed LPD officers

Sgt. Murray testified that DeMarco appeared competent and
lucid while giving her statement.

3

27a
to Sorenson’s residence, 4 whereupon he was arrested
for armed assault with intent to murder.
RULINGS OF LAW
“Probable cause [to arrest] exists where, at the moment of arrest, the facts and circumstances within the
knowledge of the police are enough to warrant a prudent person in believing that the individual arrested
has committed or was committing an offense . . . . The
officers must have entertained rationally more than a
suspicion of criminal involvement, something definite
and substantial, but not a prima facie case of the commission of a crime, let alone a case beyond a reasonable doubt.” Commonwealth v. Santaliz, 413 Mass.
238, 241 (1992) (internal quotations and citations
omitted). This is true even without a warrant. See,
e.g., Commonwealth v. Hason, 387 Mass. 169, 173
(1982) (internal citation omitted) (“[i]t has long been
the law of this Commonwealth that an officer may arrest a person without a warrant if he has reasonable
grounds for believing that that person has committed
a felony”).
Sorenson argues that the police lacked probable
cause to arrest him because, at the time of his arrest,
they lacked sufficient evidence specifically identifying
him as the assailant. 5 Sorenson claims that DeMarco
did not come forward on her own and that, when the
police interviewed her, they failed to record her statement. Sorenson also claims that DeMarco’s statement
suggests that she had prior knowledge of the robbery
and was potentially an accomplice, therefore
It appears that Sorenson lived at his girlfriend’s apartment,
which is where DeMarco directed LPD officers.

4

5

Sorenson does not object to LPD procedure for the photo arrays.

28a
damaging her credibility. Finally, Sorenson claims
that neither Ortiz nor his two female companions
could identify Sorenson by name, which means that
the only identification of Sorenson was an unreliable
one from DeMarco. The court does not agree for the
following reasons.
At the time of the arrest, LPD officers knew that
Ortiz had been seriously injured during an apparent
drug-sale-turned-robbery. LPD officers interviewed
all available witnesses and reviewed cellular telephone data. Relying upon a combination of witness
statements, identifications, and telephone records,
LPD officers ultimately identified Sorenson as a suspect who matched Ortiz’s general description, and was
identified, by name, by DeMarco, the only other eyewitness. The totality of this information is ample
probable cause for Sorenson’s arrest under the standards set out above in Santaliz and Hason. 6 The Commonwealth’s evidence at the hearing in this matter
was sufficient for this court to conclude that, at the
time of the arrest, the LPD had probable cause to believe that Sorenson had committed the crimes at issue. Sorenson’s motion to suppress is therefore denied.

Even assuming that DeMarco’s statement was treated as accomplice testimony, Ortiz’s description is sufficient corroboration
for a reasonable fact-finder to credit DeMarco’s statement. See
Commonwealth v. Asmeron. 70 Mass. App. Ct. 667, 671-672
(2007) (internal citations and quotations omitted) (“evidence corroborating accomplice testimony need not prove the commission
of the crime, all that is necessary is that the evidence satisfies
the jury that the accomplice is telling the truth’’).
6

29a
ORDER
For the reasons stated above, defendant Erich Sorenson’s motion to suppress is DENIED.
SO ORDERED
Heidi E. Brieger
Heidi E. Brieger
Justice of the Superior Court
Dated this 1st day of April, 2014.

